                                  News From
                        The Office of Inspector General
                   Corporation for National and Community Service



Ex-VISTA Supervisor Gets Probation

A former Puerto Rico VISTA supervisor who enrolled 11 ineligible full-time college
students in the program and then advised the members to lie about their status has
been sentenced to 18 months of probation.
An OIG investigation found that Rosa Luz Molina, an employee of the Municipality of
Caguas, Puerto Rico, enrolled the members while knowing that full-time college
students are ineligible for VISTA, which requires a full-time service commitment from
participants. Molina, who pled guilty to one count of False Statements and was
sentenced in Federal Court on July, 19, 2011, also admitted that she told the VISTA
members to lie about their student status if they were questioned by Corporation
officials.
The loss to the Government, in the form of benefits for the ineligible members, is
estimated at more than $140,000. The OIG is pursuing a civil action to recover those
funds.
